LE

2311 Douglas Street

E-Mail Address:

Omaha, Nebraska 68102-1214

contact@cocklelegalbriefs.com

1-800-225-6964
(402) 342-2831
Fax: (402) 342-4850

Web Site
www .cocklelegalbriefs.com
No. 19-54
KAROLYN GIVENS, ET AL.,
Petitioners,
v.
MOUNTAIN VALLEY PIPELINE, LLC,
Respondent.
AFFIDAVIT OF SERVICE

I, Andrew Cockle, of lawful age, being duly sworn, upon my oath state that I did, on the 6th day of September, 2019, send
out from Omaha, NE 1 package(s) containing 3 copies of the REPLY BRIEF FOR PETITIONERS in the above entitled case.
All parties required to be served have been served by Priority Mail. Packages were plainly addressed to the following:
SEE ATTACHED

To be filed for:
Ryan P. Bates
BATESPLLC
919 Congress Avenue
Suite 750
Austin, Texas 78701
512-694-5268
rbates@batespllc.com

Christopher S. Johns
Counsel of Record
Christen Mason Hebert
JOHNS & COUNSEL PLLC
14101 Highway 290 West
Suite 400A
Austin, Texas 78737
512-399-3150
cjohns@johnsandcounsel.com
Counsel for Petitioners

Subscribed and sworn to before me this 6th day of September, 2019.
I am duly authorized under the laws of the State ofNebraska to administer oaths.

PATRICIA BILLOTTE
General Notary
State of Nebraska
My Commission Expires Nov 24, 2020

Notary Public

Affiant

38620

Attorneys for Respondent Mountain Valley Pipeline, LLC
Colin E. Wrabley
Counsel ofRecord
Nicolle R. Snyder Bagnell
Reed Smith LLP
Reed Smith Centre
225 Fifth Avenue
Pittsburgh, Pennsylvania 15222
412·288·3548
cwarbley@reedsmith.com

